IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 21-5592
JOHN H. RAMIREZ, PETITIONER
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.
(CAPITAL CASE)
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE
IN ORAL ARGUMENT AS AMICUS CURIAE, FOR DIVIDED ARGUMENT,
AND FOR ENLARGEMENT OF TIME FOR ARGUMENT
_______________

Pursuant to Rule 28 of the Rules of this Court, the Acting
Solicitor General, on behalf of the United States, respectfully
moves that the United States be granted leave to participate in
the oral argument in this case as an amicus curiae supporting
neither party; that the time allotted for oral argument be enlarged
to 65 minutes; and that the United States be allowed 15 minutes of
argument time.

Petitioner and respondents have each consented to

this motion and have each agreed to cede five minutes of argument
time to the United States.

2
Petitioner is a Texas capital inmate who alleges that state
policies

restricting

his

spiritual

adviser’s

ability

to

pray

audibly or physically touch him in the execution chamber violate
his

rights

under,

inter

alia,

the

Religious

Land

Use

and

Institutionalized Persons Act of 2000 (RLUIPA), 42 U.S.C. 2000cc
et seq.
Court

After granting certiorari and a stay of execution, this
directed

the

parties

to

address

whether

petitioner

adequately exhausted his audible-prayer claim under the Prison
Litigation Reform Act of 1995 (PLRA), 42 U.S.C. 1997e(a); two
issues related to the merits of petitioner’s RLUIPA claim; and his
entitlement to equitable relief.
The United States has a substantial interest in the questions
on which this Court has requested briefing.

The exhaustion

requirement of the PLRA applies to claims by federal prisoners.
The Attorney General may bring actions to enforce RLUIPA, see 42
U.S.C. 2000cc-2(f), and the Religious Freedom Restoration Act of
1993, 42 U.S.C. 2000bb et seq., imposes the same substantive
standard on federal prisons that RLUIPA imposes on their state
counterparts.

In addition, respondents and the court of appeals

have relied on their understanding of the relevant recent practices
of the Federal Bureau of Prisons, and the United States has a
substantial interest in clarifying those practices.
The United States has filed an amicus brief in support of
neither party addressing the issues on which the Court requested
briefing.

The brief takes the position that petitioner may have

3
exhausted his audible-prayer claim as required by the PLRA; that
petitioner has established that the challenged state policies
substantially

burden

the

exercise

of

his

sincere

religious

beliefs; and that while restrictions on audible prayer and physical
contact by spiritual advisers in the execution chamber advance
compelling

governmental

interests,

the

lower

courts

erred

in

viewing the record below as sufficient to carry the State’s burden
to show that a categorical ban on those activities is likely the
least restrictive means of furthering those interests.

The brief

observes that the State could, however, submit additional evidence
on that and other issues.

The brief accordingly suggests that,

with no execution date imminent, the Court should remand the case
to allow the lower courts to take additional evidence and reassess
the claim to equitable relief in the first instance.
The United States has previously presented oral argument as
an amicus curiae in cases involving issues like those presented
here.
Holt

For example, the United States addressed a RLUIPA claim in
v.

Hobbs,

574

U.S.

352

(2015);

the

PLRA’s

exhaustion

requirement in Ross v. Blake, 578 U.S. 632 (2016); and the relief
available

aspects

of

execution procedure in Hill v. McDonough, 547 U.S. 573 (2006).

In

light

of

to

the

a

state

capital

substantial

inmate

federal

challenging

interest

in

the

questions

presented and issues on which this Court has directed briefing,
the United States’ participation at oral argument would materially
assist the Court in its consideration of this case.

4
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
SEPTEMBER 2021

